<html>
<title> - THE TRAGIC CASE OF LIU XIAOBO</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                     THE TRAGIC CASE OF LIU XIAOBO

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2017

                               __________

                           Serial No. 115-45

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-226PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                         
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       

                                 ______
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Yang Jianli, Ph.D., president, Initiatives for China.............     4
Mr. Jared Genser, founder, Freedom Now...........................    23
Perry Link, Ph.D., chancellorial chair for innovative teaching, 
  University of California, Riverside............................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Yang Jianli, Ph.D.: Prepared statement...........................     7
Mr. Jared Genser: Prepared statement.............................    26
Perry Link, Ph.D.: Prepared statement............................    32

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55

 
                     THE TRAGIC CASE OF LIU XIAOBO

                              ----------                              


                         FRIDAY, JULY 14, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
morning to everyone.
    Liu Xiaobo's premature death was a jarring shock to 
everyone who admired this champion of freedom and democracy. We 
mourn his loss because it is a tragic loss for his wife, 
family, and friends, and a catastrophic loss for China and 
really the entire world.
    We owe Liu Xiaobo a debt of gratitude because he 
demonstrated that the noble idea of democracy and due process, 
liberty, and the rule of law are not foreign ideas to China. 
They are universal principles that beat strongly in the hearts 
of people everywhere, from New Jersey to California, to the 
Nineveh Plain, to Iraq, from Poland to Peru, from Burma to 
Beijing.
    We owe Liu Xiaobo a debt of gratitude because he reminded 
us that the desire for democracy and human rights is shared by 
everyone because each person is endowed by the Creator with 
inalienable rights.
    The Chinese Communist Party has tried to curtail his ideas, 
they call them dangerous and subversive, and they seek to 
silence, censor, and repress them. Yet they live on in the 
hearts of untold millions of Chinese people.
    With Liu Xiaobo's death we also reminded of the words of 
Dr. Martin Luther King who said, ``Injustice anywhere is a 
threat to justice everywhere.'' We should all agree that what 
was done to Liu Xiaobo and his wife Xia was a grave injustice.
    Liu Xiaobo's imprisonment in 2009 became a death sentence. 
The blame for this should lie squarely on the Chinese 
Government, and for his death, they alone, should be held 
accountable. Liu Xiaobo was the first Nobel Peace Prize winner 
to die in state custody since Carl von Ossietzky died after 
being held in a Nazi concentration camp.
    Two days ago, we heard the Chinese Government complaining 
that it was stabbed in the back by those expecting it to deal 
quickly with its client state of North Korea. How shameful it 
is to play the victim card while the victim of their own 
repression lay dying.
    No nation should be judged entirely by crimes of the past, 
but this crime, the death and silencing of Liu Xiaobo, should 
follow the Chinese Communist Party like an unwashable permanent 
stain. We must never forget Liu Xiaobo's enduring 
contributions, whether during the Tiananmen massacre where he 
helped save the lives of many students, or with Charter 08, the 
treatise urging political and legal reforms in China based on 
constitutional principles.
    We must not forget Liu Xiaobo. We must advance and preserve 
his legacy and repeatedly confront the Chinese Communist Party 
with his ideas and his memory. In this time of need, we must 
signal the Congress' unanimous support for Liu Xiaobo's family, 
his wife Xia, and all those bravely standing up for human 
rights and liberty in China.
    I was invited by Liu Xiaobo's family to attend the 2010 
Nobel Peace Prize ceremony. It was a moving ceremony. The now 
famous empty chair, and we have a photograph of that over on my 
right, speaks volumes of the Chinese Communist Party's abiding 
fear that human rights and democracy will undermine its power.
    I will always remember the words of Liu Xiaobo's speech 
that day--of course not given in Oslo--about the importance of 
pressing for human rights. ``Freedom of expression,'' he said, 
``is the foundation of human rights, the source of humanity, 
and the mother of truth. To strangle freedom of speech is to 
trample on human rights, stifle humanity, and suppress truth.''
    He also expressed his hopes for China's future. He said, 
``I firmly believe that China's political progress will not 
stop. And I, Liu Xiaobo, filled with optimism, look forward to 
the advent of a future free China. For there is no force that 
can put an end to the human quest for freedom, and China will 
be in the end will become a nation ruled by law where human 
rights reign supreme.''
    Liu Xiaobo would, sadly, never see a free China. Chinese 
authorities have gone to great lengths to stifle his ideas and 
those who followed him. In recent years, the government of 
President Xi Jinping has engaged in an extraordinary assault on 
the rule of law, human rights, ethnic minority groups, and 
civil society. As China's economic and military power grows, 
more and more countries will be afraid to raise subjects that 
the Chinese Communist Party wants to make taboo.
    The U.S. stands alone, inadequate as its efforts are at 
times, in its willingness to keep on raising human rights 
issues that need to be raised. The U.S. cannot lightly shrug 
off the mantle of being democracy's defender no matter how 
heavy that mantle may become.
    It is tempting to be pessimistic about China's future and 
the future of U.S.-China relations. But I am not pessimistic, 
and taking a cue from Liu Xiaobo, none of us should be. 
Constant repression has not dimmed the desire of the Chinese 
people for freedom and reform, and, of course, that is 
attributed to the great work of Liu Xiaobo.
    Nevertheless, the U.S. cannot be morally neutral or silent 
in the face of the Chinese Government's repression of 
fundamental freedoms. Human rights are not a secondary 
interest, but one critically linked to all issues in China, 
including U.S. economic and security interests.
    The U.S. must not shy away from meeting with China's other 
Nobel Laureate, the Dalai Lama, or other dissidents. We must 
use congressionally authorized sanctions to hold Chinese 
officials accountable for torture and gross abuses, including 
those proscribed in the International Religious Freedom Act 
and, of course, the Global Magnitsky Act.
    We must connect Internet and press freedoms as both 
economic and human rights priorities. And we must demand 
repeatedly and clearly that unconditional release of political 
prisoners is in the interest of a better U.S.-China 
relationship.
    I believe that someday China will be free, someday the 
people of China will be able to enjoy all of their God-given 
rights, and a nation of free Chinese women and men will honor 
and celebrate Liu Xiaobo as a hero. He will be honored along 
with others like him who have sacrificed so much and for so 
long for freedom.
    I yield to my distinguished ranking member, Karen Bass.
    Ms. Bass. I want to thank our witnesses for joining us 
today. I extend my condolences to Liu Xiaobo's family and 
friends on his recent passing.
    Chairman Smith, you have long been a champion, as 
demonstrated by your actions over the years and today.
    The loss of Liu Xiaobo has once again brought attention to 
the issues of human rights in China. Tragically, his 
imprisonment and passing is a reminder of the importance of 
monitoring the treatment of those who have been imprisoned or 
who have lost their lives fighting for freedom, freedoms like 
the freedom of religion, speech, press, and the right of people 
to peacefully assemble, as well as the often-implied freedom of 
association.
    Central to those freedoms is the freedom to petition the 
government for a redress of grievances. Liu Xiaobo spent the 
final months of his life appealing to the Chinese Government to 
allow him to leave China to receive cancer treatment, and even 
in his final request he was denied.
    He could have lived a quiet life as an academic, a scholar, 
a writer, but instead he decided to challenge the status quo 
and actively engage in efforts for democratic reform. He leaves 
behind the embers of democratic principles that will be fanned 
by generations to come.
    I yield.
    Mr. Smith. I thank my good friend for her comments.
    I would like to now recognize our very distinguished panel, 
beginning with Yang Jianli, who was born in Shandong Province 
in northern China and graduated from college at the age of 19. 
A rising star in the Chinese Communist Party, Yang Jianli 
quickly became disenchanted by the corruption and duplicity he 
witnessed in the Communist system.
    He left China to pursue a career in mathematics at UC 
Berkeley. In 1989, at the age of 26, his fellow graduate 
students at Berkeley elected him to go back to Beijing in 
support of their counterparts in China who were demonstrating 
for democracy in Tiananmen Square. After escaping the gruesome 
massacre, he dedicated his entire life in promoting a peaceful 
democratization.
    He received his Ph.D. in mathematics from UC Berkeley. But 
of significance, when he returned to China in 2002 he was put 
in prison for 5 years. Upon his release he founded Initiatives 
for China. So he knows the inside of a gulag.
    And we thank him for being here, especially with the loss 
of his brother-in-law. And he will be going to that funeral 
right after here. He wanted to be here so badly.
    We will then hear from Jared Genser, the founder of Freedom 
Now and managing director of Perseus Strategies. Previously, 
Jared was a partner in government affairs at DLA Piper. He is a 
visiting fellow at the National Endowment for Democracy. His 
human rights clients have included Vaclav Havel, Aung San Suu 
Kyi, Liu Xiaobo, Desmond Tutu, Elie Wiesel.
    He holds a B.S. From Cornell and a master's in public 
policy from the John F. Kennedy School of Government at 
Harvard. He got his J.D. cum laude from the University of 
Michigan Law School.
    He is an author of ``The U.N. Working Group on Arbitrary 
Detention: Commentary and Guide to Practice,'' and he is a co-
editor of ``The Responsibility to Protect: The Promise of 
Stopping Mass Atrocities in Our Times.''
    And I want to thank him for his tenacious leadership for 
Liu Xiaobo and other wonderful and leading dissidents around 
the world.
    Then we will hear from Perry Link, who is professor 
emeritus of East Asian studies at Princeton University and 
chair for Teaching Across Disciplines at the University of 
California at Riverside. He has published widely on modern 
Chinese language, literature, and popular thought. As a member 
of the Princeton China Initiative, Human Rights Watch Asia, and 
other groups that support human rights, he has authored many, 
many books, and he has testified here in the past as well.
    I would like to go to Dr. Yang.

  STATEMENT OF YANG JIANLI, PH.D., PRESIDENT, INITIATIVES FOR 
                             CHINA

    Mr. Yang. Chairman Smith and Ranking Member, I had a 
sleepless night. At this grievous moment I would like to thank 
you for holding this critical hearing. It is critical for us to 
discuss how we can still lend a helping hand to assist Liu 
Xiaobo and his family and how we can fight to honor the legacy 
of his courage and sacrifice.
    Liu Xiaobo's tragedy represents the tragedies of many human 
rights activists in China, but it is also unique in its own 
way. In all of the Nobel Peace Prize history there have only 
been three jailed laureates, but among them Liu Xiaobo is the 
most tragic one.
    Liu Xiaobo had been held incommunicado since December 2008 
until he became terminally ill and was eventually allowed a 
visit by a German doctor and an American doctor after the pleas 
to Xi Jinping from both President Trump and German Chancellor 
Merkel.
    During his entire imprisonment he was not allowed even to 
talk about any current events with his wife Liu Xia during her 
visits, nor the persecutions Liu Xia and her family suffered. 
Even on his deathbed he had no freedom to leave his last words. 
Now that he is gone, the world will never know.
    Liu Xiaobo's cancer was diagnosed on May 23 during an 
emergency hospital visit because of internal bleeding. And 
since then he had been hospitalized in the First Hospital of 
China Medical University in Shenyang, Liaoning Province. 
However, the news of his late stage cancer was not leaked out 
until late June.
    During this time his tumor enlarged from 5 to 6 cm to 11 to 
12 cm. It is reported that Liu Xiaobo had two CT tests last 
year. How can two tests--two tests--fail to reveal Liu Xiaobo's 
fairly large liver cancer tumors? Many, including myself, 
suspect that the Chinese officials intentionally concealed this 
information. This is why they have been withholding his medical 
records. These records are classified as a top state secret.
    I strongly believe that the Chinese regime deliberately 
chose not to treat Liu Xiaobo's cancer earlier. As early as 
2010, Liu Xiaobo was suspected of suffering from hepatitis B. 
His lawyers had been petitioning the government to grant him 
medical parole. But the Chinese authorities never allowed him 
proper diagnosis and treatment.
    In China it is not doctors, but the party officials to 
decide whether to grant medical parole. In other words, medical 
parole in China is a political, not a medical decision.
    In Liu Xiaobo's case, it was up to China's top leaders to 
decide. The denial of medical care led to Liu Xiaobo's advanced 
liver cancer and at its core was a disguised death sentence.
    When Liu Xiaobo's worsening condition became public, human 
rights activists, 150 Nobel laureates, and world leaders called 
for Liu Xiaobo's immediate release and medical treatment 
overseas. Liu Xiaobo himself also expressed his wish to seek 
medical treatment abroad and to die in a free place.
    Unfortunately, the Chinese regime carelessly disregarded 
these requests. After persecuting him for so many years, the 
regime still did not even hesitate to crush his final wish.
    I believe the reason that the Chinese regime denied Liu 
Xiaobo's wish and the world's appeal to allow him medical 
treatment abroad and to die in a free place is that it fears 
that the truth of its ruthless persecution will come to light. 
The world media would focus on Liu Xiaobo and the regime's lies 
would be exposed. More and more people in China would see the 
true nature of this one-party state. The government would lose 
control.
    No doubt, the Chinese Communist regime is responsible for 
Liu Xiaobo's death. However, the world's democracies' 
appeasement policy toward China's human rights abuses has made 
them accomplices of Liu Xiaobo's slow murder.
    If the world continues to acquiesce to China's aggression 
against its own people, engaging it without any moral clarity, 
Liu Xiaobo's tragedy will repeat.
    Mr. Chairman, the U.S. can and should do more to help Liu 
Xiaobo and his family. We should urge the Trump administration 
to make it a high priority to urge China to grant Liu Xia full 
control over any funeral arrangements for her late husband and 
to help Liu Xia to leave China for a country of her choosing.
    The U.S. should implement country-specific and tougher 
sanctions against those personally responsible for Liu Xiaobo's 
death. The U.S. should use the Global Magnitsky Act as a tool 
to sanction them, banning them from travelling in the U.S., and 
freezing their assets in this country, and also encourage its 
allies to do the same. It should also consider trade sanctions.
    In addition, the U.S. can honor Liu Xiaobo's life and 
legacy by passing legislation to permanently rename the street 
in front of China's Embassy in Washington, DC, as Liu Xiaobo 
Plaza.
    To fight for the ideals of human rights and democracy Liu 
Xiaobo give up his career, he gave up his freedom, and now he 
has given up his life. But we cannot give up on him. We have to 
seek justice for his death at the hands of China's regime, and 
we have to preserve the legacy of Liu Xiaobo's struggle for a 
democratic, free China.
    Thank you.
    [The prepared statement of Mr. Yang follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Mr. Smith. Dr. Yang, thank you for your eloquent and moving 
and enlightened recommendations and testimony.
    Mr. Genser.

      STATEMENT OF MR. JARED GENSER, FOUNDER, FREEDOM NOW

    Mr. Genser. Thanks so much, Mr. Chairman, Ranking Member 
Bass. It is with a heavy heart and after a tragic day yesterday 
that I appear before you this morning.
    Undoubtedly, Yang Jianli and Perry Link, who were friends 
with Liu Xiaobo, will be able to bring to life who he was as a 
person and will be able to speak better than me to his life and 
to his legacy. Sadly, I never met Liu Xiaobo, and now I never 
will.
    The intersection of my life with Liu Xiaobo came only after 
he had been convicted and sentenced to 11 years in prison for 
inciting subversion of state power. I was introduced to Liu Xia 
by my friend and colleague Yang Jianli.
    It was Jianli, among many others, who 20 years ago inspired 
me to become a human rights lawyer, as we helped organize the 
protest against Jiang Zemin when he visited Harvard in the fall 
of 1997. And 5 years later I served as Jianli's lawyer when he 
was detained in China and faced a death sentence on the 
pretextual charge of being a spy for Taiwan. It was in mid-2010 
that I was introduced by Jianli to Liu Xia.
    What I can uniquely speak about today, however, is the 
brutality of the Chinese Government and its fear of change, for 
I have seen through the intense and unrelenting persecution of 
Liu Xiaobo and Liu Xia some of the most horrific, callous, and 
inhuman acts that go beyond the power of an ordinary and normal 
person's power of imagination.
    Over the summer of 2010 I got to know Liu Xia as we began 
preparing to take her husband's case to the United Nations. As 
the announcement of the Nobel Peace Prize approached that year 
it was rumored he was on the short list, and Liu Xia and I 
discussed if it made more sense for her to travel abroad to 
fight for her husband's freedom or to remain in China. Despite 
the concerns I expressed to her that she would not likely 
remain free if Liu won the prize, she told me unequivocally, 
``My place is in China with my husband.''
    Shortly after he was announced as the recipient of the 
prize in October 2010, the security cordon came down and she 
was placed under house arrest, and she has been held without 
charge or trial ever since.
    I had the tremendous privilege and honor to represent the 
Lius in Oslo and to sit in the front row as the prize was 
presented to the empty chair. But I know and I knew on that day 
that the prize was awarded that getting them both out would be 
a virtually impossible task.
    For myself, while I expected her ability to communicate or 
travel to be restricted, I never could have imagined how much 
the Chinese Government would punish Liu Xia for the crime of 
being married to her husband.
    She was held in a one-bedroom apartment in Beijing, one of 
the most popular cities in the world, and for the first several 
years virtually incommunicado, with a security guard posted 
outside of her door and security at the front of the building 
to turn people away. She had no telephone, no Internet access, 
and was only able to see her parents once a month and was taken 
to see Liu Xiaobo once a month. She suffered severe depression 
and had a heart attack.
    On a handful of occasions journalists broke through the 
security cordon, captured brief images of her, clearly in 
intense agony. To punish her for these incidents the Chinese 
Government prosecuted her brother Liu Hui on bogus economic 
crimes charges and sentenced him to 11 years in prison, and he 
served some 2 years-plus in jail. She was captured by one 
journalist and she was taken to his trial crying out, ``Tell 
the world I am not free.''
    In her latter years under house arrest and with her own 
health deteriorating rapidly, she was allowed to be in touch 
with a very small number of friends, but the pressure on her 
was unrelenting.
    We don't know anything, anything at all, about how Liu 
Xiaobo has been treated in prison. The last time he said 
anything that was reported publicly was when he was sentenced 
to prison in December 2009. All we know is that he was held in 
extended solitary confinement throughout this time, which 
constitutes torture under international law, and we know that 
Liu Xia was able to visit him monthly, and we know that with 
all of its resources at the disposal of the Chinese Government 
it neglected his medical care so much so that it had no idea he 
had liver cancer until it had reached Stage 4 and was terminal.
    As the Lius' counsel I fought their cases aggressively in 
every forum that I could find. We took their cases to the U.N. 
Working Group on Arbitrary Detention, and in response to our 
submission, the Chinese Government remarked regarding Liu Xia's 
detention, regarding her Kafkaesque existence, that she was 
``under no legal restriction.''
    That was perhaps actually literally true. She had been held 
actually illegally without charge or trial now for almost 7 
years. The U.N. found that they were both held arbitrarily and 
in violation of international law.
    We secured a letter from 134 Nobel laureates urging 
President Xi to let them go, which was joined by 450,000 people 
around the world whose petitions we had delivered to a half 
dozen Chinese Embassies. And we published countless op-eds, 
testified before parliaments, held candlelight vigils, and did 
everything possible to persuade governments around the world to 
act.
    In the last few weeks we have seen President Xi and the 
Chinese Government at its worst.
    First, their leaders were pressured not to tell anybody 
about Liu Xiaobo's cancer diagnosis.
    Second, when they were able to make it public they were 
held virtually incommunicado at the hospital.
    Third, the Chinese Government flagrantly lied about his 
conditions to the international community to justify him not 
being able to travel abroad for medical treatment.
    Fourth, after a German and American doctor found he would 
have actually been able to travel abroad and there were 
treatments that could have extended his life for several weeks, 
the Chinese hospital published a statement asserting that the 
doctors, those foreign doctors, had actually said that he had 
gotten excellent care and was too sick to travel abroad.
    Once the foreign doctors put out their own statement 
refuting what the Chinese hospital said, the government 
retreated back to telling the international community not to 
interfere with its internal affairs.
    And fifth, as if Liu Xiaobo and Liu Xia had not suffered 
enough, in his dying days not only were family and friends 
denied the ability to visit and to tell him good-bye, but they 
were never even allowed to be alone with each other. The entire 
time, a Chinese security official was with them around the 
clock. And in the end, President Xi showed no humanity and no 
mercy.
    If this is how China treats its most famous political 
prisoner, it is self-evident that the brutality of the Chinese 
Government in repressing its own population is as complete as 
it is unapologetic. Truly anything can be justified in the name 
of the greater good.
    Yet despite the tragedy that Liu's freedom has come from 
his death, it is clear today that the Chinese Government has 
lost. Liu's ideas and his dreams will persist, spread, and will 
one day come to fruition. And his courage and his sacrifice for 
his country will inspire millions of Chinese activists and 
dissidents to persevere until China has become the multiparty 
democracy that Liu knew to his core was within its people's 
grasps.
    So what do we do from here? The work is clearly not done in 
so many different respects. First and most immediately, the 
world must rescue Liu Xia. She must immediately be allowed to 
have open communication with the outside world, and her wishes 
for the burial of her husband and relocation of herself and her 
family must be fully honored. Given Xia is under ``no legal 
restriction,'' this should be easy to achieve.
    Second, the world must never forget Liu Xiaobo and what he 
stood for. I would urge all freedom-loving countries around the 
world, starting with the United States, to rename the street in 
front of the Chinese Embassy Liu Xiaobo Plaza. The Chinese 
Government is literally erasing him from existence in China. If 
you type his name in Chinese in the WeChat program online, for 
example, his name is instantly erased. The Chinese Government 
should never be allowed to forget Liu Xiaobo.
    And finally, the best way to honor the legacy of Liu Xiaobo 
would be for the United States and so many other countries 
around the world to stand in solidarity with the Chinese 
people's struggle for freedom, democracy, and human rights.
    As I noted before, the last time the world heard from Liu 
was in a statement released his by his counsel on December 25, 
2009, right after he was sentenced to 11 years' imprisonment. 
Liu said, ``I have long been aware that when an independent 
intellectual stands up to an autocratic state step one toward 
freedom is often a step into prison. Now I am taking that step, 
and true freedom is that much nearer.''
    It is tragic that Liu was only free when his soul left his 
body, but the legacy he left behind will never be forgotten.
    Thank you.
    [The prepared statement of Mr. Genser follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                              ----------                              

    Mr. Smith. Mr. Genser, thank you very much.
    Dr. Link.

    STATEMENT OF PERRY LINK, PH.D., CHANCELLORIAL CHAIR FOR 
    INNOVATIVE TEACHING, UNIVERSITY OF CALIFORNIA, RIVERSIDE

    Mr. Link. I would like to join my fellow witnesses in 
congratulating Chairman Smith, Ranking Member Bass, 
Representative Suozzi, and everyone on this committee, not only 
for this session, but for the many sessions you have done in 
the past and I hope will continue to do in the future. They 
truly are important.
    In order to challenge a repressive regime like the one in 
China today, a regime that demands comprehensive control of 
society and resorts to extreme brutality if it perceives a 
threat to itself, a person needs to make a judgment that 
speaking the truth is more important than personal safety. 
Dozens of Chinese in recent decades have accepted those stakes, 
have persisted in speaking honestly in public, and have 
suffered dire consequences.
    Liu Xiaobo stood out within this courageous group because 
of his truly unusual determination. He went to prison four 
times, yet none of the punishments deflected him in the 
slightest from his view of the truth or from his willingness to 
express it.
    Three related events during the years 2008 to 2010 turned 
him into China's most prominent dissident.
    One was his sponsorship of the citizen's manifesto called 
Charter 08, which is the only public document since the 
Communist revolution in 1949 that calls for an end to one-party 
rule.
    Second is the 11-year prison sentence that was the 
consequence of having worked on that charter. And third was the 
2010 Nobel Peace Prize, which came as a consequence of the 
prison sentence. So you can see there is a chain of causality 
there.
    Intellectually, Liu was one of those unusual people who 
could look at human life from the broadest of perspectives and 
reason about it from first principles. His keen intellect 
noticed things that others only look at but don't see. He was 
deeply erudite on a variety of topics in history and 
literature, both Eastern and Western, ancient and modern.
    His remarkable habit of writing free from fear was so 
natural and routine that it seemed almost genetic, almost 
something that he himself could not stop. Most Chinese writers 
today, including many of the best ones, write with political 
caution in the backs of their minds and with a shadow hovering 
over their fingers as they pass across a keyboard. How should I 
couch things? What topics should I not touch? What indirection 
should I use?
    Liu Xiaobo did none of this. With him, it was all there. 
What he thought, we got.
    The combination of Charter 08 and the Nobel Prize seemed 
for a time to open an alternative for China, a new alternative. 
Chinese citizens had long been accustomed to the periodic 
alternations between more liberal, so-called, and more 
conservative, so-called, tendencies within Communist rule, as 
if those limits described how far one could think.
    But Charter 08 removed the blinkers and showed that there 
could be another way to be a modern Chinese. It was hard to 
find Chinese people who disagreed with the charter once they 
read it, and this potential for contagion was clearly the 
reason why the regime suppressed it.
    Today, the severe tightening of controls on Chinese society 
that has come during the last few years under the rule of Xi 
Jinping has pushed China in the opposite direction from what 
the charter stood for, and the question, therefore, arises, is 
the charter dead? Was the effort in vain?
    This question is difficult, but my answer would be no. The 
movement has been crushed, but its ideas have not been. The 
government's assiduous, unremitting, and very expensive efforts 
to repress anything that resembles the ideas in Charter 08 is 
evidence enough that the men who rule are quite aware of the 
continuing potential of the ideas to spread.
    Liu Xiaobo has been compared to Nelson Mandela, Vaclav 
Havel, and Aung San Suu Kyi, each of whom who accepted prison 
as the price for conceiving and pursuing more humane governance 
in their homelands. But Mandela, Havel, and Suu Kyi all lived 
to see release from the beastly regimes that repressed them, 
and Liu Xiaobo did not.
    Does this mean his place in history will fall short of 
theirs? Is success of a movement necessary in order for its 
leader to be viewed as heroic? Perhaps so.
    It may be useful, though, to compare Liu Xiaobo and China's 
President Xi Jinping for a moment. The two men differ in age by 
only 2 years. During Mao Zedong's Cultural Revolution both 
missed school and were banished to remote places. Xi Jinping 
used the time to begin building a resume that would allow him, 
by riding the coattails of his elite Communist father, to vie 
one day for supreme power. Liu Xiaobo used the same time to 
read on his own and learn to think for himself. One of them 
mastered the skullduggery and sycophancy that a person needs in 
order to rise within a closed bureaucracy. The other of them 
learned to challenge received wisdom of every kind, keeping for 
himself only the ideas that could pass the test of rigorous 
independent examination by himself. For one of them, value was 
measured by power and position. For the other, by moral worth.
    Today, after their final standoff, one of them has ``won,'' 
the other has ``lost.'' But 200 years from now who will 
remember the names of the tyrants who sent Mandela and Havel 
and Suu Kyi to jail? Will the glint of Liu Xiaobo's incisive 
intellect be remembered or the cardboard mediocrity of Xi 
Jinping's?
    I have just a few extra comments on his final days.
    Before Liu Xiaobo died of liver cancer in a prison ward in 
a Shenyang hospital, he asked for safe passage for himself, his 
wife, and his brother-in-law to go to Germany or the U.S. The 
two Western governments agreed, but the Chinese Government, 
saying Liu was already receiving the best possible medical care 
and was too weak to travel, did not.
    Until then Liu had always rejected suggestions that he 
leave China, primarily because dissidents who leave China lose 
credibility back home. Moreover, Liu had made it his personal 
mission to show exactly what happens, right to the last detail, 
when an independent thinker confronts an authoritarian regime.
    We do not know why he changed his position in his last few 
days, but we can guess that the reasons, and I have two 
guesses. One is the obvious one, that he was critically ill and 
transfer abroad might have been the only chance, however 
slight, to save his life.
    Second, and I think this is really the more likely, he knew 
that his death was imminent and wanted to spend the last of his 
energies to help his beloved and long-suffering wife Liu Xia, 
who has been held under house arrest for the last 7 years even 
though formally charged with nothing and who has had bouts of 
severe depression.
    But if Liu's reasoning cannot be known, and now it cannot 
be, there can be no doubt whatever about the reasoning of his 
captors. Their concerns had little to do with medical care one 
way or the other and much to do with preventing Liu Xiaobo from 
speaking his mind one last time.
    What did he see as he lay dying for a world in which 
China's beastly dictatorship continues to grow? China's rulers 
are no doubt relieved to see that the answers to that question 
are now, with his very life, sealed in eternity.
    [The prepared statement of Mr. Link follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                              ----------                              

    Mr. Smith. Dr. Link, thank you so very much for that 
eloquent and heartfelt message.
    We are privileged on the subcommittee to be joined by 
Leader Nancy Pelosi, who has been tenacious in her advocacy for 
Liu Xiaobo and other dissidents in the People's Republic of 
China.
    I would like to yield such time as you like to consume.
    Ms. Pelosi. Thank you very much, Mr. Chairman. It is such a 
sad day for all of us who were so hopeful that we could have 
seen an opportunity for medical care to be given to Liu Xiaobo 
in the last days of his life to extend his life, the life of 
this great man.
    I thank you, Mr. Chairman, for your ongoing, consistent, 
persistent advocacy for human rights throughout the world, and 
particularly in this case in China. You and I have worked on 
these issues for decades. Your staff said to me, ``You are now 
sitting on the Republican side.'' When it comes to these issues 
there is no side. We have always worked in a very strong 
bipartisan way, and I have always saluted your leadership, as 
well as our colleague Frank Wolf from Virginia, who was also 
very relentless.
    I have seen Dr. Yang's testimony and Mr. Genser's testimony 
and heard Dr. Link's beautiful statement, as well. I just 
wanted to make a statement for the record.
    I just was being interviewed over in the Capitol for a 
statement on this, and what I partially said was: The world 
grieves the loss of Liu Xiaobo, one of the great moral voices 
of our time. His clarion call for democracy and human rights in 
China represented the best hopes of humankind. His courage 
became a poignant symbol for freedom-loving people across the 
globe.
    Liu Xiaobo's death is a tragedy and a deep affront to the 
basic notions of justice and human dignity. The role that poor 
medical care in prison played in his death and the cruelty of 
confining a dying man in captivity away from his family and 
friends should disturb us all. His arrest for the so-called 
crime of putting his political views into writing is a sobering 
reminder of China's shameful disregard for basic freedoms.
    The world is a bleaker place for this crushing loss, but we 
must continue to carry forward Liu Xiaobo's legacy. America 
must honor its moral duty to speak out in defense of the many 
journalists, human rights lawyers, democracy advocates, and 
religious freedom advocates unjustly and unfairly lost in jail 
simply for aspiring to a more free and hopeful future.
    If we do not speak out for human rights in China because of 
commercial interest [audio malfunction in hearing room.].
    Two weeks ago, I was pleased to join Congressman Chris 
Smith, co-chair of the Congressional-Executive Commission on 
China, as the House overwhelmingly passed a bipartisan 
resolution calling for the unconditional release of both Liu 
Xiaobo and his wife Liu Xia. We strongly hoped that China would 
heed the call to free Liu Xia for unjust house arrest and will 
allow her to travel wherever she may choose.
    I just want to join Dr. Link in his comments about Liu Xia. 
Reading from Liu Xiaobo's Nobel lecture in absentia on December 
10, 2010, he said in this: ``If I may be permitted to say so, 
the most fortunate experience of these past 20 years has been 
the selfless love I have received from my wife Liu Xia. She 
could not be present as observer in the court today,'' he was 
talking about the court. ``But I want to say to you, my dear, 
that I firmly believe your love for me will remain the same as 
it has always been.''
    More things, but, ``Your love is the sunlight that leaps 
over high walls and penetrates the iron bars of my prison 
window, stroking every inch of my skin, warming every cell of 
my body, allowing me to always keep peace, openness, and 
brightness in my heart. Even if I were crushed into powder I 
would still use my ashes to embrace you.''
    I think that he has given us our direction. We must work 
very hard to protect Liu Xia, hopefully to bring her and 
brother-in-law of Liu Xiaobo out of China. I will take my 
guidance from Chairman Smith. We talked about a number of ways 
to honor the memory of Liu Xiaobo and to honor his love of his 
wife.
    I am particularly happy that Congresswoman Karen Bass is 
with us today. She is a person who respects the dignity and 
worth of every person. She works hard for children in our own 
country and is a supporter of the dignity and worth of people 
throughout the world.
    Thank you, Congresswoman Bass, for making this a priority 
for us.
    And, again, under your leadership, Mr. Chairman, you will 
give me some guidance as to what you think the best path is to 
go, but I will close by saying: May Liu Xiaobo life and legacy 
continue to inspire all who strive for justice and democracy. 
May his memory be a blessing to us all. And may his family take 
some solace in knowing that the whole world mourns with them.
    And, Dr. Link, I don't think it is going to take 200 years. 
I think right now and very soon the contribution, the legacy of 
Liu Xiaobo will certainly eclipse the authoritarians of China.
    With that, I thank the chairman and yield back.
    Mr. Smith. Leader Pelosi, thank you very much for your 
eloquent----
    Ms. Pelosi. I am honored that the chairman----
    Mr. Smith. And we are joined by the full committee 
chairman, the distinguished Ed Royce.
    Mr. Royce. Well, thank you, Mr. Chairman, very much, and 
Leader Pelosi.
    It is a sad day. Yesterday was a very sad day. A sad day 
for human rights. I was deeply saddened to learn of Nobel Prize 
Laureate Liu Xiaobo's tragic passing. I think the world mourns. 
Our thoughts are with his loved ones, especially his widow, Liu 
Xia, who has been under house arrest now since 2010.
    Liu was a prolific writer. He was an academic. He dedicated 
his life to giving voice to the oppressed. And he did this by 
calling for his government to grant more freedom to the Chinese 
people.
    He was imprisoned multiple times, and he was imprisoned for 
his peaceful protests for human rights and for democracy in 
China. It happened first during Tiananmen Square in 1989 and 
later for releasing the Charter 08 manifesto in 2009, which 
articulated the need for reforms in China. Those reforms, it 
was his intent, would achieve the rule of law, would achieve 
freedom of press and speech and religion.
    He was an inspiration to all of us. Liu's efforts were not 
in vain. His sacrifice and death while in the custody of the 
Chinese Government, while serving an unjustified 11-year prison 
sentence, has shined a light on the sad state of human rights 
in China.
    As we take stock of these sad events, we should remember 
that there are prisoners of conscience in China and around the 
world who continue to need our support. Let us be part of his 
legacy. May the bravery of Liu Xiaobo inspire us to seek their 
freedom also.
    And thank you again, Mr. Chairman.
    Mr. Smith. Thank you, Chairman Royce.
    And, again, thank you, Leader Pelosi. We were together in 
Oslo.
    Ms. Pelosi. What an honor.
    Mr. Smith. And what an honor. And what a heartbreak this 
is. Hopefully, Liu Xiaobo's death will be a global pivot to 
human rights in China, and we certainly have to do our part in 
doing that.
    Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman. I know we are very 
rushed for time because we have to go over for votes.
    But I just wanted to say, Dr. Yang, my condolences to you.
    Mr. Genser and Dr. Link, thank you so much for your life's 
work and for your testimony, as well.
    It is hard to imagine when we are in this air-conditioned 
room that is so august and in this setting to think of the 
suffering that went on in his life and now goes on in his 
wife's life and in so many other people's lives, from cancer to 
depression and heart attacks and suffering. And this is going 
on all over the world right now in people who are trying to 
fight for human rights and fight for human dignity throughout 
the world.
    And his life is such an inspiration to me and I know to so 
many other others, and we are so grateful to all of you for 
helping to bring notice to this important message.
    You know, China right now is trying to participate in the 
modern world through its economy. But economic improvement is 
not a substitute for respect for human dignity and human 
rights.
    And I want the chairman to know and the ranking member to 
know and the leader to know that I will do everything I can to 
work with them to support efforts to make sure that this life 
was not a life in vain.
    So thank you so much for everything that you do.
    [Speaking foreign language.]
    Mr. Smith. Thank you.
    We will take a brief recess. We have votes on the floor. It 
is actually on zero, so we are going to have to run, but we 
will be right back.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting.
    And, Dr. Yang, I know you do have to go to the funeral of 
your brother-in-law. And, again, my greatest sympathies to you 
and your family. But, please.
    Mr. Yang. I have a few further points to make, then I can 
leave.
    Mr. Chairman, Liu Xiaobo represents the best of what China 
can be, in death as well as in life. He possesses a moral 
authority that his persecutors can only envy. His legacy of 
love, just as in courage, will surely far outlive the deeds of 
those who persecuted him.
    Liu Xiaobo was a major leader of the 1989 democracy 
movement. He shouldered moral and political responsibility 
after Tiananmen Square, continued to fight inside China for its 
constitutional democracy while many left the country and even 
left the movement.
    He shared the suffering of his compatriots and made great 
sacrifices for them. He is a saint. His spirit will be an 
uplifting and unifying force that will inspire more people of 
China to fight to realize his dream, indeed the common dream of 
Chinese people.
    To the world, he represents the universal values that all 
democracies embrace and the unwavering struggle of unfree 
people for freedom. Liu Xiaobo is a representative of ideas 
that resonate with millions of people all over the world.
    But it is a sad and disturbing fact that many leaders of 
the free world, who themselves hold democracy and human rights 
in high regard, have been less willing to stand up for those 
rights for the benefit of others. If this became a widely 
accepted fashion and continued, the democratic way and the 
security of the free people would eventually be in jeopardy.
    Today I cannot help asking, what kind of a government would 
refuse to grant the final wish of such a peaceful, kind of man 
as Liu Xiaobo, a man who sincerely believes that he has no 
enemies, to die as a free man, to die with dignity? What kind 
of a government would not even allow him the last moment of 
being with his beloved wife without surveillance?
    This is a totally morally bankrupted regime. Dealing with 
such a regime, one must have moral clarity. There is a lot of 
talking about engaging with China, yes, no one can avoid 
engaging with China. But democracies must engage China 
comprehensively. Democracies must engage this brutal face of 
this regime and must not look the other way when human rights 
tragedies take place. The Chinese Government can never be 
considered a true trusted peer on the global stage until they 
address their egregious human rights violations.
    The tragic passing of Liu Xiaobo gives us a stronger sense 
of urgency to help other dissidents. I am afraid that more 
human rights activists will languish and disappear in China's 
prisons: Wang Bingzhang, Hu Shigen, Zhu Yufu, Ilham Tohti, 
Tashi Wangchuk, Wang Quanzhang, Jiang Tianyong, Tang Jingling, 
Wu Gan, Guo Feixiong, Liu Xianbin, Chen Wei, Zhang Haitao, the 
list goes on.
    If American advocacy for human rights and justice is to 
mean anything at all, the U.S. Government must do more to 
support these political prisoners and to hold accountable the 
government and the individuals who so brazenly abuse their 
fundamental rights.
    We all hoped that Liu Xiaobo would one day complete his 
unjust prison sentence and then have more time to share his 
passion and energy for human rights and dignity; and also, 
perhaps, one day to have time to enjoy for himself the fruits 
of freedom. But instead he is gone.
    To close, I want to share with you the beautiful words of 
Martin Luther King, Jr., which he delivered in a speech in 
Memphis, Tennessee, on the evening before his own death:

        Well, I don't know what will happen now. We have got 
        some difficult days ahead. But it really does not 
        matter with me now, because I have been to the 
        mountaintop and I don't mind.
          Like anybody, I would like to live a long life. 
        Longevity has its place. But I am not concerned about 
        that now. I just want to do God's will. And he has 
        allowed me to go up to the mountain. And I have looked 
        over, and I have seen the promised land. I may not get 
        there with you. But I want you to know tonight that we, 
        as a people, will get to the promised land.

    Thank you.
    Mr. Smith. Dr. Yang, thank you for your passion and 
precision and how we present. It is just couldn't be clearer 
the stark difference between the gross evil of what is done by 
the leadership of the PRC and a man of light of Liu Xiaobo's 
character.
    So thank you for your--all three of you--thank you for 
bearing witness to the noble truth of this man and what he 
stood for.
    I note again, Dr. Yang, in your testimony you pointed out 
that the denial of medical care led to Liu Xiaobo's liver 
cancer, and it was at its core a disguised death sentence. To 
not treat, certainly no early detection, and as you point out 
in your testimony, as far as back as 2010 Liu Xiaobo was 
suspected of suffering from hepatitis B.
    His lawyers--and, Mr. Genser, you spoke about this many 
times--petitioned the government and kept asking to grant him A 
medical parole to get the healthcare, the health attention that 
he needed rather than languishing in a horrific jail cell.
    I think the other story that needs to be told by the media 
globally is this whole death sentence. It wasn't like he got 
Johns Hopkins-like medical care or Sloan Kettering-grade 
medical care. He was ignored. The evidence clearly suggests 
that they did nothing or very little. And to deny his request 
to go to Germany or to here to get the kind of care he needs 
and to turn that down shows a barbarity that just needs to be 
confronted aggressively.
    Like I said earlier, I think this needs to be the pivot to 
human rights in his legacy, of course, but because there are so 
many others still suffering horribly in laogai and throughout 
the Chinese concentration camp system.
    And when Xi Jinping goes to Davos and talks about 
transparency and openness, it is a cruel joke. And I am glad 
that the administration did put China on Tier 3 for its 
egregious abuses with regards to sex and labor trafficking. 
Magnitsky needs to be full throttled in its implementation to 
hold individuals to account.
    The International Religious Freedom Act, which has China as 
a country of particular concern, or CPC country, carries with 
it at least 18 prescribed sanctions that can be very, very 
potent if utilized. They have not been. There has to be a 
response to this the likes of which we have never seen before.
    As you said so eloquently, Dr. Yang, a disguised death 
sentence. For what? For peacefully asking for fundamental 
freedoms and human rights.
    So if any of you would like to comment on this lack of 
medical attention, which is appalling, please do. And I do have 
some other questions. But any other points you would like to 
make, as well, we would like to receive.
    Mr. Yang. Mr. Chairman, I have to leave right now.
    Mr. Genser. I do want to build on Global Magnitsky. And my 
view is--and I will work on this myself--is I would like to put 
together a comprehensive list of everybody who was responsible 
for Liu Xiaobo's arrest, trial, imprisonment, and care, or lack 
thereof, from the prosecutor, to the judge, to the person who 
ran his prison, to the hospital where he died.
    It seems to me that we can put together a list of a dozen 
or 15 names of people that are directly responsible for what 
happened to him. And that should be among a number of different 
things that are done to send a very clear message about where 
the United States stands in regards to those who are actually 
responsible.
    There will be no justice and accountability, of course, for 
anybody in China. But there needs to be some measure of justice 
and accountability for Liu Xiaobo as part of his legacy and to 
send a very clear signal about there being consequences to 
decisions that are being made at all levels of government in 
China. So that is what I would just have to say on Global 
Magnitsky.
    Mr. Link. It is worth noting, I think, that the pattern of 
having political prisoners die in prison in China is a pattern. 
It is not just that Liu Xiaobo was the first one. A few years 
ago a woman named Cao Shunli, who is not nearly as famous as he 
is, was ground to death. She disappeared about September 15 on 
her way to go to Geneva for a report on human rights in China. 
The police took her into prison. And she was released 6 months 
later in a coma, given to her family after it was clear that 
she would not live but not wanting her to die in prison because 
the regime is afraid of that black eye on its record.
    I would like to make another point, though, as we remember 
this man. I think it is important that we--and by ``we,'' I 
mean the whole world--recognize him as a world-class person, 
not just a China person. We China scholars have the problem, I 
think, of thinking that he speaks for China, and he is talking 
about Chinese human rights, and we are dealing with the Chinese 
Government. And all of that is true. But he speaks to the whole 
world.
    In my statement a moment ago, I referred to Mandela and 
Havel and Aung San Suu Kyi, all of whom are viewed as world-
class upholders of freedom and human rights, and he should be 
too.
    I noticed on the PBS television program that announced his 
death last night, I was waiting to see which China scholar 
would come on and talk about it. But they didn't have a China 
scholar. They had a man from India who represented Amnesty 
International, and I thought that was wonderful. Because the 
point is he speaks for all of humanity, not just Chinese 
humanity.
    And in that connection, I think it is good that this 
subcommittee is on Africa, Global Health, Global Human Rights, 
and International Organizations. That is a very good step 
toward saying what Liu Xiaobo stood for is universal human 
rights, not just China.
    Mr. Smith. Let me ask you, Dr. Link. You have testified 
before, and I appreciate your testimony you have provided us on 
the whole university, the 12 campuses--like NYU, for example, 
Kean College--in China, on Mainland China, and then all the 
Confucius centers?
    Has there been any response over the last 2 weeks. We 
passed a resolution--I authored it, it was cosponsored by 
Leader Pelosi, so it was totally and absolutely bipartisan, and 
it passed unanimously in the House 2 weeks ago--calling for Liu 
Xiaobo and his wife and family to be able to come here or 
wherever they would like to go for medical treatment.
    Have we heard anything on those campuses or at the 
Confucius centers about the life and the tremendous legacy and 
the work of Liu Xiaobo.
    Mr. Link. The Confucius centers are on living, breathing, 
U.S. campuses. So it is certain that some people on those 
campuses notice these things and support them.
    I haven't done a survey of what the Confucius Institute's 
leaders themselves have done, but I feel very confident in 
saying, no, they wouldn't touch it with a 10-foot pole. They 
get money from the Hanban in China. And without it being in 
written form, know that there are certain things you just don't 
do. You don't entertain the Dalai Lama or Liu Xiaobo or the 
Falun Gong problem or Tibet or Xinjao or the Beijing massacre. 
There is a list of about two dozen utterly untouchable topics 
that Confucius Institutes just don't observe.
    Mr. Smith. My hope is--and we will, as the Congressional-
Executive Commission on China, which I also co-chair with Marco 
Rubio--I think it would be very timely for us to write them and 
ask them to raise the issue of Liu Xiaobo's widow, Liu Xia. You 
know, NYU Shanghai campus, and I did speak there a little over 
a year ago, on human rights. And, of course, Liu Xiaobo was one 
of the first things I said there.
    But they have, I think, an obligation, I would say a moral 
duty to speak out, because they tell us that they have academic 
freedom and the ability to speak in an unfettered way. And you 
are right. There are economic interests intertwined. But the 
hope would be that America's voice--and I would say not just 
America, a universally important, universally recognized human 
rights voice needs to be articulated now.
    There needs to be a pivot to human rights. The old days 
have to be over of just thinking that backdoor diplomacy and 
mentioning it, you know, under your breath is going to work. It 
is not going to work. It has not worked.
    We had a number of women testify here before our 
subcommittee just recently, all the wives of human rights 
lawyers who have been detained pursuant to that crackdown by Xi 
Jinping. And to hear them tell their stories about, you know, 
their husbands, and them, because they suffer equally. The 
idealism is just breathtaking. And yet they are in prison.
    Same way with the five daughters hearing that we had of all 
of those young Chinese daughters who couldn't even get a 
meeting with President Obama. And they pleaded with us to tell 
him, please let us talk to him face-to-face, he has two 
daughters, he will understand. They never got the meeting. And 
they were articulate and they were daughters that just spoke 
out so articulately and bravely on behalf of their dads who are 
suffering like Gao Zhisheng and others.
    So I think that is something we need to do, is to get at 
least these U.S. universities, which should or used to be 
beacons of academic freedom and human rights and inquiry, to 
raise the issue of Liu Xiaobo's widow, and the work and legacy 
of Liu Xiaobo himself, and Charter 08, the great manifesto.
    Mr. Link. I think it is a brilliant idea to have you or 
others in the Congress write to all of the American campuses, 
especially the prestigious ones who have accepted Confucius 
Institutes, first asking the question, saying, a Nobel Peace 
Prize winner has died in police custody in China, surely, this 
is a topic worth note. What has your institute done about it? 
And then go on to ask the question, what are your plans for 
helping the wife?
    Mr. Smith. Thank you, Dr. Link.
    Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    And thank you for convening this meeting.
    And my apologies, candidly, to our guests. The timing is 
not the best. But, obviously, it coincides with this tragic 
loss of the life of a vocal leader for human rights around the 
world.
    It strikes me that the balance that the United States 
maintains with China is an interesting one, that we might be to 
a greater extent than perhaps in any era in recent history 
rivals. And yet we are arguably codependent upon one another 
economically and globally.
    The paramount interest of our office, and I think my 
constituents, based on my listening, is that there would be 
peace and stability and that there would be a fundamental right 
to an opportunity extended to people within the Fifth District 
of Virginia, the United States, and, candidly, globally. And 
pardon me if I don't do service to Liu Xiaobo's name.
    But when a person of this magnitude exercises the moral 
courage which we have witnessed in this country through the 
statements and actions of people like Patrick Henry and Martin 
Luther King, Barbara Johns and Abraham Lincoln, it is, indeed, 
as you say, something that should be taken note of by the 
world. While folks of my political ilk might sometimes find 
fault with some of the selections of the Nobel Committee, I 
think they could have found no more appropriate recipient than 
Liu Xiaobo.
    And one of the things that I have crusaded for as a member 
of the statehouse and now the Congress is a greater awareness 
by Americans of who Barbara Johns was. She was a 16-year-old 
girl who led a student walkout in Farmville, Virginia, in the 
early 1950s, which really sparked the civil rights movement in 
Virginia, and did so at the imperilment of her own life, and 
that of others, and did so at a time when at a similar age I 
was concerned with popping zits and whether or not I could get 
a prom date.
    And so sometimes I wonder what we do well here, what we can 
accomplish here. But, to this end, I would say, Congressman 
Smith, gentlemen, folks in the room, that the more people we 
can get to go to Google and type in Liu Xiaobo's name and 
understand what he did in the face of the odds in which he did 
it, the more Liu Xiaobos there will be.
    I guess, to the extent that we can help, I commend you on 
raising the awareness and teaching about folks who we might not 
agree with on every single piece of subject matter, but who 
stand for fundamental truths that no one who is an America can 
deny, and that is that all people are created equal and endowed 
by their Creator with certain rights.
    And so I suppose I will take my time here to query both of 
you. What, again, within the purview of the legislative branch 
of the United States Federal Government we can do to ensure 
that his legacy doesn't die with his physical body, to insist 
that an important trade partner and member of the world 
community, China, understands that we give a damn--pardon me--
and to encourage greater freedom and opportunity across the 
globe, and do so wherever practical and possible without bombs 
and bullets and missiles and rockets, but brave men and women 
who are willing to stand up in the face of potential 
imprisonment or worse.
    So I would offer first Mr. Genser the floor for 
suggestions. What can we do within the purview of Article I to 
help perpetuate the legacy of this great leader to convey to 
our Chinese partners that we care, that we will not sit by idly 
as members of, say, for example, the Falun Gong, are imprisoned 
on the eve of what was supposed to be a meeting with U.S. 
leadership? What can we do to abate my fear that when spouses 
of imprisoned dissidents show up before this committee they 
have only made their family's circumstance worse?
    Mr. Genser. Thanks, Congressman Garrett, for your remarks, 
with which I fully agree, and your commitment to human rights, 
as well. Let me just mention a couple of things that I think 
are important that the Congress could be particularly involved 
in helping.
    The first, of course, and most importantly, is to help get 
Liu Xia and her brother out of China as rapidly as possible. We 
need to restore access to them and then confirm their wishes 
and get them out. And that should be a top priority.
    And I think that pressure by having this hearing today, 
pressure by moving a bill that is focused on Liu Xia and her 
brother, we have also been talking about a private Member's 
bill that would give them legal permanent resident status 
immediately upon arriving in the United States, these are 
things that Congress can do. So that would be number one.
    Number two, Liu Xiaobo Plaza, renaming the street in front 
of the Chinese Embassy for Liu Xiaobo, I think, is a way that 
the United States and governments all over the world--I am 
sure, we will be campaigning for this--for all countries in the 
world to rename the streets in front of the Chinese Embassy Liu 
Xiaobo Plaza. This is something that, obviously, has to go 
through the Congress, and then go to the President for 
signature.
    Number three, justice and accountability. And I was just 
mentioning, as well, having a list of those responsible for Liu 
Xiaobo and Liu Xia's deaths, to have the Congress advocating to 
have them sanctioned under Global Magnitsky and to make clear 
that this is why they are being sanctioned.
    And then let me just step back broadly and make a final 
point, which is something that--I have spent my career as a 
human rights lawyer fighting for the freedom of prisoners of 
conscience. I spent 5 years Aung San Suu Kyi's international 
counsel. I have represented more than 40 prisoners of 
conscience over my career and founded Freedom Now, my NGO, on 
whose board I sit, which has a full-time staff in Washington 
and London to work on these cases.
    One of the things I think the U.S. needs to do more 
directly, and I think the Congress could play a key role in a 
legislative context, is to focus our foreign policy on the 
world's prisoners of conscience. Because it seems to me that we 
have annual human rights reports, and that is really good, and 
prisoners of conscience are kind of a narrow piece of it, but a 
more focused set of activities for the United States to focus 
on prisoners of conscience.
    Because what we have found historically--and we were 
talking about a lot of different, obviously, names, people like 
Havel, people like Mandela--is that the prisoners of conscience 
of today are the leaders of their countries tomorrow, and that 
for the United States to stand in solidarity with homegrown 
pro-democracy activists, not the United States imposing our 
values or our form of government onto others, but embracing 
those that within their own countries see the value of 
democracy, the value of human freedom, and to systematically as 
part of our foreign policy and engaging with every country in 
the world, any country that is persecuting prisoners of 
conscience, our engagement with that country, not just from the 
State Department or the National Security Council, but from 
every agency, can be focused on a list of names that would be 
raised, focused on training Foreign Service Officers to do 
these kinds of things, focused on reporting requirements for 
the State Department about what is being done to help these 
people.
    What is interesting is that if you look at the case of 
Natan Sharansky, who of course was a Soviet dissident, whose 
wife, Avital, met with President Reagan, a mentor of mine in my 
career, Irwin Cotler, was his counsel and had a chance to talk 
to Gorbachev about, ``Why did you release Natan Sharansky?''
    And what Gorbachev said was really telling, and I think 
really, really important, which was to say that, ``Well, I 
didn't know who this guy Natan Sharansky was until I was''--
many years before he became the President of the Soviet Union 
he was Minister of Agriculture. And he came to the United 
States on some kind of agricultural exchange and discussion 
about, well, agricultural issues. And, yet, on the U.S. side, 
our Agriculture Secretary raised to him Natan Sharansky's name 
in a meeting about agriculture.
    And one of the first things he did when he became 
President, he told my friend and mentor, Irwin Cotler, was to 
ask the secret police, the KGB, for the file of Natan 
Sharansky, because he had heard about this in many meetings 
with U.S. Government officials over and over and over again. 
And it was like, why is the Agriculture Secretary doing this? 
And he looked at the file and he was like, well, this makes no 
sense, why is this guy in jail? And ultimately he was released.
    And so, to me, that is an important lesson for the United 
States, that prisoners of conscience and helping people of this 
sort isn't just the responsibility of some narrow Assistant 
Secretary for Democracy, Labor, and Human Rights to be raising, 
but that it has to be part and parcel and central to U.S. 
foreign policy as a strategic tactic to be regularly deployed 
to try to advance human freedom around the world.
    So let me conclude with that.
    Mr. Garrett. So to some degree the Sharansky case was 
almost a ``ye have not because ye ask not.''
    Mr. Genser. Right.
    Mr. Garrett. One thing that I probably unintelligently 
voiced my frustration with, and I have only been here for a 
short time, is that I don't feel that we have synergy between 
the executive and the legislative as it relates to working 
together. We have worked on the release of some prisoners of 
conscience, particularly in the southern Nuba Mountain regions 
of the Republic of Sudan, and I almost feel like the State 
Department wants to know why I care.
    God bless the good men and women there, but we should be 
working together to advance the same goals. And wherever any 
human being is held prisoner based on beliefs, unless those 
beliefs advocate violence against other humans, why can't we 
all agree on that, right?
    So thank you immensely, and I would love to speak to you 
briefly after the hearing about what you do, because I think we 
might be able to help to the same, I think, admirable goal.
    The only thing that I have been able to do in 6 months here 
that I can take pride in and take to my grave is help affect 
the release of individuals held because of their beliefs, 
right? It is hard to pass a bill. But when you tell somebody 
the United States of America is looking and cares about some 
formerly nameless individual in prison because of their faith 
or their actions of humanity toward another and something 
happens, then you go, maybe this is all worth it. Thanks for 
what you do.
    Dr. Link, what else, within the context of the legislative 
role of the Article I constitutional underpinnings of this body 
should we be doing that we are not doing? And, by the way, I 
texted my legislative director during your comments to get us 
on the bill that is out there as it relates to the plaza, the 
Liu Xiaobo Plaza.
    Mr. Link. Let me add my voice to the chorus that says that 
the Liu Xiaobo Plaza is a great idea. I really strongly endorse 
that, and also endorse what my colleague Jared Genser said in 
some more detail about focus of foreign policy on prisoners of 
conscience.
    I think it is often perceived that we do that because it 
makes us feel better. And that is good. We should feel better. 
It is right to do the right thing and we are better people for 
doing it. But what he has pointed out is that it is also an 
investment in practical terms in a better world, because these 
people that we are helping emerge--Havel did, Mandela did, Aung 
San Suu Kyi did, Liu Xiaobo can't, but there are more--it is a 
good investment from a practical point of view.
    I would add a third, which Jared sort of mentioned, but I 
would put it this way, and that is the bully pulpit is a good 
thing to use. It sounds like we are just pontificating, 
preaching and so on, and that there might be backlash. But I 
think that is not right. Even the leaders, even the oppressors 
in China, at another level, know that democracy and human 
rights are a good thing. Watch the way they put the word 
democracy in their own rhetoric. Stalin, Lenin, said they had 
democratic centralism. Mao Zedong said it was democratic 
centralism. North Korea, the most repugnant state on the face 
of the globe today, calls itself the Democratic People's 
Republic of Korea.
    There is a two-leveledness in the psychology of the 
oppressors. They want it both ways. On the surface, okay, the 
West is bad, the West's values are not universal, and they are 
oppressing us, and so on. But I am going to send my daughter to 
Harvard. Xi Jinping's daughter went there. Send them money.
    I am from California. The Los Angeles area is full of 
communities that are built on money--probably corrupt money--
shipped from China that the privileged elite in China wants to 
ship abroad. They send their kids to go to U.S. schools more 
and more and more.
    So what does this say? Does this say that they hate Western 
values? No. It is a rivalrous feeling. And at one level they 
say, we are all against you. But at another level, we are 
sending our children and our money to your country for 
safekeeping.
    So that gives us a platform on which to say, without 
apology, democracy, freedom, human rights are good things. And 
they may say on the surface, no, no, no, no, no, that is 
Western imperialism. Underneath, they know it is not. A lot of 
them know it is not.
    Therefore, I think what I have just called the bully 
pulpit, when our officials go to the G20 meetings, when they go 
to the United Nations, or through VOA and Radio Free Asia, 
don't be embarrassed to put our values out there. There is more 
to them than the tyrants in China want to admit.
    Mr. Garrett. Thank you, Dr. Link.
    I would beg the chairman's indulgence for another question 
that is tangentially related and not directly related. But your 
comments have got the wheels turning a little bit.
    There is some call from various sectors to, in order to 
exert pressure on the Chinese to exert pressure on North Korea, 
consider rolling back admissions of Chinese students to U.S. 
universities.
    My immediate reaction is that we don't have a Sisi in Egypt 
if there is not a period of learning and experiencing American 
culture, that we don't have any number of leaders abroad who 
have turned out to be pretty good allies if they hadn't spent 
time here in the United States. So there is back-end value to 
having the children, even of the Chinese ruling class, in 
American institutions.
    Having said that, the secondary argument is there is a 
rivalry, there is a need for engineers and software developers 
and expertise, and there is a competitive nature to it whether 
we like it or not. And our institutions are producing the young 
women and men who are beating us at our own game, if you will.
    I would love your opinion on the idea that somehow denying 
access to our universities might advance goals as it relates to 
human rights and stability and safety on the Korean Peninsula 
and as it relates to geopolitical stability and security, which 
might manifest itself differently based on the regions from 
which our excellent young students might matriculate. This is 
an opinion question. There are no wrong answers.
    Mr. Link. As a broad principle, I would say that it is good 
for us to take the children of anybody if they are smart enough 
to get through the universities and do well, and that the long-
range effect of a U.S. education on the children of the Chinese 
elite is a good thing. And I work in the university.
    I make certain exceptions for that though. About a week ago 
a Wall Street Journal columnist named Bill McGurn called me up, 
and he asked me what I thought of targeting the offspring of 
the super elite in China and denying them visas to come to 
Harvard and Stanford and Chicago as a method of getting 
leverage for China to cooperate on North Korea. And I said, I 
think that is a good idea.
    So there is an exception there to my broader principle. And 
I would just say I make that exception because it is well known 
that we have no good options on North Korea. And if you bomb 
and attack, that is going to wreak havoc. It is going to 
destroy the city of Seoul. If you just do what we have done for 
the last three decades, which is to cross your fingers and hope 
for the best, that is not working either.
    What can we do? China, of course, can play a key role. That 
would be the way to really bring pressure on the North Korean 
regime. But China won't. I think the Chinese leadership likes 
their position of being able to waffle and have us constantly 
begging them to help, and they say they will, but then they 
don't, and so on. That is their endgame. They like that.
    So when Bill McGurn asked me is this a way to get the top 
leaders' attention in a very personal way, I said yes. And I 
would make that exception.
    Mr. Garrett. Thank you.
    And, Mr. Genser, if you have any comments to that, I would 
welcome them. I don't want to freeze you out here.
    Mr. Genser. I agree with Perry on this. I think as a 
strategic question overall, I think the more that we can expose 
foreigners to U.S. universities the more that our system of 
government, the system, the free market, our values, will be 
transmitted.
    But you look at certain countries in the world and their 
leaders send their kids to the United States, and you may have 
a different take on it. So, for example, let's take Iran. It 
was reported in the media about 1 year, 1\1/2\ years ago, that 
the woman who was actually the spokesperson for the students 
who took the U.S. Embassy in 1979, Masoumeh Ebtekar, who was 
referred to as Mary back then as the spokeswoman, her son is 
getting his Ph.D. in California. And she is the sitting Vice 
President of Iran and the head of their EPA and has been an 
unrepentant person with respect to everything relating to the 
United States and including her role in taking American 
hostages.
    Do I think it is a good idea to allow someone like that to 
have their child educated in the United States? Not really. My 
view is that while ordinarily I would never want to punish a 
child for the sins of his or her father or mother, in a case 
like that, where the person is a sitting senior leader and is 
an unrepentant hostage taker, I don't think that we should be 
opening up our borders freely to people like that.
    And I would note, as well, that among my other clients are 
Siamak and Baquer Namazi, two American citizen hostages in 
Iran, two of four currently. And so Iran isn't just 
historically having taken hostages, but it is doing so today. 
And the current Government of Iran, and particularly the 
Revolutionary Guard Corps, are responsible for that.
    So it does seem to me that one needs to be smart about this 
and not just go with a big hammer and say, well, let's just not 
let people in. But I think that strategically the United States 
can definitely use access to our university system to send 
targeted messages in the right way and in the right time.
    Mr. Garrett. So, Mr. Chairman, I will wrap up.
    So, in conclusion, I would ask the yes-or-no question, the 
succinct summary of what you said is, if we target specific 
individuals and paint with a very narrow brush, that there can 
be an effective outcome. If we paint with a broad brush and 
essentially say, we are not going to have students from country 
X, it is probably deleterious to our long-term desires.
    Mr. Genser. Yes.
    Mr. Link. Correct.
    Mr. Garrett. Thank you guys immensely. And, again, Mr. 
Genser, if you will stick around for a little bit, I would be 
grateful.
    Mr. Smith. Thank you very much, Mr. Garrett. And I will 
just conclude and then ask if you have any final statements 
that you would like to make before we end the hearing.
    Just for the record, Senator Cruz's bill to rename 
International Drive Liu Xiaobo Plaza has been hotlined in the 
Senate. Unfortunately, it has a couple of holds on it, and that 
is the way the Senate works. One member can hold up a bill. But 
it is being actively pursued there.
    And Mark Meadows, a member of our subcommittee, has 
introduced H.R. 2537 to rename Liu Xiaobo Plaza. And our hope 
is as soon as that can get approved, the better. And I am very 
proud to be one of the cosponsors, following his lead on that.
    Just one brief point about a whole-of-government approach. 
We recently enacted the Frank Wolf International Religious 
Freedom Act, and one of the main parts of that legislation was 
to have a whole-of-government approach so that you don't get a 
human rights dialogue that becomes a means unto an end, where 
it is like a cul-de-sac, you know, everyone talks, everybody 
leaves, there is no connection to anything else.
    We need the U.S. Trade Representative, we need people in 
the military, particularly when there is a government-to-
government contact of some kind, to almost, as you pointed out 
with the Agriculture Secretary and Natan Sharansky, or 
agriculture officials, that they realize that every time they 
turn around a group of noble dissidents are being named as 
being high priority to the United States. When you don't do 
that, that speaks volumes as well.
    So that Religious Freedom Act also has prisoners lists by 
country, which I think has been long overlooked. Some of the 
dissidents in the political sphere get good mention by the 
Bureau of Democracy, Human Rights, and Labor, which is good. 
But, again, it often stops there.
    So we need this whole-of-government approach so that 
everyone--and that would go for Members of Congress as well, 
that when we travel we don't go to China and fail to bring up--
particularly if you meet with a leader--the names, and the more 
specific, the better.
    I will never forget Frank Wolf and I met with Li Peng back 
in the 1990s. And our delegation, he and I, and our staff, were 
merged with a trade delegation. Thankfully, we got the seats 
closest to Li Peng, Premier, and we raised the issues 
specifically of names, Tiananmen Square names, went through 
religious freedom, forced abortion. We laid out a human rights 
case. He sat there almost bewildered. Who let these two guys 
in? But the whole discussion was about that.
    The next day he met with another group from America, and he 
launched into a tirade about democracy and how they protect 
democracy, and he was all-on defensive mode, because they have 
much to be ashamed of.
    These are willful acts they have taken. What they did to 
Liu Xiaobo, what they continue to do to his wife, is by design, 
not by default. And so we need to hold them to account. And my 
hope is that this new administration will do a whole-of-
government approach.
    And, lastly, I learned a lesson from Wei Jingsheng when he 
was briefly let out of prison to procure the 2000 Olympics for 
China. They eventually got it in 2008, but they wanted it in 
2000. A high value political prisoner, father of the Democracy 
Wall movement who spent 18 years in prison. He went back in 
after we met and had dinner together--not right away, but when 
they didn't get the 2000 Olympics.
    He said, everybody in America and in policymaking around 
the world need to understand that when you kowtow they beat us 
more in the prison. It follows right through into the prison 
cell itself, and those who administer torture and other 
horrible misdeeds against prisoners.
    When you are tough, predictable, look them in the eyes and 
say, we know what you are doing, we know what you have been 
doing to Liu Xiaobo all these years, and you bring it up every 
time, they beat us less and they treat us better. And people do 
get out of prison. They often go on parole, but they are at 
least home.
    And so, again, this pivot to human rights in China that the 
horrific death, death sentence of Liu Xiaobo, is now that the 
Western governments led by the United States need to say, now 
we are all in, in the legacy and in the great pioneering work 
that was done by Liu Xiaobo.
    So if you would like to conclude, or if Mr. Garrett wants 
to conclude with any statement, I would just yield to my 
friends at the witness table.
    Mr. Link. I will tell one anecdote to reinforce the point 
you just made. My wife is Chinese, and she was a protester in 
the 1989 events and was sent to a labor camp for 3 years. And 
she had also studied law. And she looked up the law, and it 
says in the law of the labor camps that you can labor only 8 
hours a day and they were having to labor 14 hours a day. So 
she said, no, I am only going to do 8 hours a day.
    And so the prison authorities organized a group of other 
prisoners to beat her. And they did. And this was terrible. She 
suffered beatings.
    She snuck out a note via another prisoner who was leaving 
to her mother. Her mother told Human Rights Watch in New York. 
Human Rights Watch publicized her case, and immediately the 
beatings stopped, and she only had to work 8 hours a day.
    Mr. Genser. I will end with an anecdote that is a tragic 
anecdote, but a reason, I think, for further motivation for us 
to proceed full force on all of these issues, which is that 
over the years I have been in touch with many human rights 
lawyers in China and worked with many of them as well. And 
obviously I can't provide any names here publicly. But there 
have been a number of human rights lawyers I know that have 
been vigorously interrogated by Chinese authorities, beaten and 
treated very badly, some of whom, of course, have been sent to 
prison, others not.
    But, unfortunately, Liu Xiaobo's name has been invoked by 
the torturers in torturing individual people in China in recent 
years. And this is when they are trying to persuade a human 
rights lawyer who maybe hasn't been as aggressive yet, as 
somebody like a Gao Zhisheng, where as they are beating them, 
they say, this is pointless, you are never going to succeed 
standing up to the one-party system.
    And look at the case of Liu Xiaobo, the world's only 
imprisoned Nobel Peace Prize laureate, and we are holding his 
wife with impunity, right? The world knows who he is and can't 
do anything about it. What hope do you have of standing up to 
our Government? You should just give up right now.
    And this is the refrain that the torturers use as they 
torture people, or certain people, in China. And to me this is 
both unsurprising and equally horrific at the same time. But 
this only reaffirms why we need to do everything humanly 
possible to keep Liu Xiaobo's memory alive and to stand in 
solidarity with the prisoners of conscience whose names Yang 
Jianli was mentioning earlier, as well as the countless 
hundreds, thousands, tens of thousands of others we don't 
really even know that are suffering.
    We can't let the anonymous prisoner of conscience be 
forgotten in China because they will do whatever they would 
like to them. And I think that the case of Liu Xiaobo will also 
be remembered, I think in the best sense, for being, hopefully, 
a line in the sand where the international community is able to 
say to China, enough, enough.
    We are mutually interdependent, as I think Congressman 
Garrett was saying, on trade, on intellectual property, on 
North Korea, around all the things we have to work on. And 
China can't afford to walk away from its relationship with the 
United States because it gets angry with the United States for 
raising human rights. It isn't going to happen under any 
circumstance. And they are not going to dump our trillion 
dollars-plus of Treasuries either, because they are smart and 
they do not want to lose a lot of money.
    So they are forced to deal with us on human rights. And why 
the international community has engaged in so much self-
censorship, to me, boggles my mind.
    I also agree--I just want to conclude by noting what 
Chairman Smith was saying about these human rights dialogues. I 
have always joked that, based on friends of mine who have been 
on them on the U.S. side, and I have heard stories about how 
they go, that these actually aren't human rights dialogues. 
They are really human rights sequential monologues.
    And maybe the Congress could force the administration to 
call them that, right? We are no longer going to have human 
rights dialogues with China. We are going to require them to be 
publicly labeled human rights sequential monologues if we are 
going to keep doing them. Because it is not like either side is 
giving anything. And the Chinese side, especially, is just 
giving speeches that are prepared and aren't able to do 
anything at all.
    So I also, as well, want to conclude by thanking 
particularly Chairman Smith. I am obviously also grateful for 
Mr. Garrett, but particularly Chairman Smith for your 
commitment over decades on China human rights. You have just 
been indefatigable, relentless, and are such an extraordinary 
champion here in the Congress on China rights issues, along 
with Leader Pelosi and others.
    But the fact that this subcommittee is so focused on China 
and so focused on human rights more broadly, I don't know what 
we would do without you, Mr. Chairman, being here and your 
leadership. And so it is always a pleasure to appear before 
you. And thank you for everything you are doing as well.
    Mr. Garrett. Thank you.
    You know, you keep stay saying stuff that makes me want to 
say more stuff. So I apologize.
    It is so frustrating. And so earlier, I believe, the IRGC 
was mentioned in the context of Iran and some of, what, the 
four Americans currently being held by that regime, which 
obviously as soon as they released a certain subset of 
Americans found some more Americans to hold.
    And it strikes me that the regime is undergirded, 
obviously--and we are taking about Iran, not China now, but we 
are on the same subject, which is global human rights--by the 
perpetuation of the IRGC, and specifically the Quds Force 
thereof. Any group of people willing to shoot their brothers 
and sisters in the face in the street is a difficult obstacle 
to overcome when you choose to exercise peaceful means of 
protest for expanded human rights.
    But what you said that sort of struck a vein was that the 
Chinese are not going to turn their backs and walk away from us 
because they are frustrated that we have discussed human 
rights. So, too, I would argue that if you remove the money 
that supports the IRGC, which supports the Quds subset thereof, 
and arguably Hezbollah globally, that you will see a climate 
wherein things like the Green Revolution are more likely to be 
successful.
    And so I will take this opportunity to chide the nameless 
masses who are more concerned with losing money by virtue of 
the termination of trade relationships with entities like the 
IRGC, or in some instances even China, than they are with 
people who have done more to perpetuate human rights and 
individual dignity and honor than they ever will, that if we 
stood up with a unified voice and said to the world, you can do 
business with the United States of America or the IRGC, for 
example, that the world would choose to do business with the 
United States of America. And millions of good Iranian people 
who yearn to have self-determination and freedom and wish to 
exercise tolerance toward their brothers and sisters could be 
the leaders therein.
    So keep doing what you are doing. I think the reason there 
is no more hue and cry, candidly, is because folks like Chris 
Smith, who have been at this for years, folks like Frank Wolf, 
who is somebody I genuinely admire, were unable to get the 
message to a broad enough subset. But there is nothing in 
Washington, DC, that I can find that transcends political 
partisanship like the concept that every human being is 
entitled to a basic level of dignity and self-determination.
    And I think we can do things. I really do. But I think we 
need to make hard choices and say, you know what, this revenue 
today, this money today, this business opportunity today will 
be there tomorrow, but right now we need to say no because 
there are greater things at stake.
    So I thank you all for what you do. It is an honor to sit 
here next to you. And, hopefully, we can get more people aware 
of circumstances like these. Because I think without ever 
dropping a bomb or firing a gun we can bring change that frees 
human beings who have an inherent, God-given, in my opinion, 
right, to self-determination and freedom.
    Thank you immensely, and I look forward to working with you 
all in the future.
    Thank you, Chairman Smith.
    Mr. Smith. Thank you so very much, Mr. Garrett, for your 
very eloquent summation and your questioning.
    Let me just, if I could, ask you all to join me in a moment 
of prayerful silence for Liu Xiaobo.
    [Moment of silence observed.]
    Mr. Smith. The hearing is adjourned.
    [Whereupon, at 12:39 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record
         
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         

                                 [all]
</pre></body></html>
